APPLICATION AND
SOLICITATION
DISCLOSURE
MASTERCARD PLATINUM PREFERRED
MASTERCARD PLATINUM CASH BACK
MASTERCARD PLATINUM REWARDS
MASTERCARD PLATINUM SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Mastercard Platinum Preferred

7.99% to 17.49%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Rewards

8.49% to 17.99%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Cash Back

8.99% to 18.49%, when you open your account, based on your

creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Secured

14.99%
APR for Balance Transfers

Mastercard Platinum Preferred
3.99% Introductory APR for 12 months from account opening.
After that, your APR will be 7.99% to 17.49% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Rewards
3.99% Introductory APR for 12 months from account opening.
After that, your APR will be 8.49% to 17.99% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Cash Back
3.99% Introductory APR for 12 months from account opening.
After that, your APR will be 8.99% to 18.49% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Secured
3.99% Introductory APR for 12 months from account opening.
After that, your APR will be 14.99% .

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04501631-MXC10-C-2-060321 (MXC102-E)

APR for Cash Advances

Mastercard Platinum Preferred
7.99% to 17.49% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Rewards
8.49% to 17.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Cash Back
8.99% to 18.49% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Mastercard Platinum Secured
14.99%

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Balance Transfer Fee
None
- Cash Advance Fee
None
- Foreign Transaction Fee
1.10% of each transaction in U.S. dollars
Penalty Fees
- Late Payment Fee
Up to $20.00
- Over-the-Credit Limit Fee
None
- Returned Payment Fee
Up to $20.00
How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR: The Introductory APR for balance transfers will apply to transactions posted
to your account during the first 30 days following the opening of your account. Any existing balances on BayPort Credit
Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Effective Date: The information about the costs of the card described in this application is accurate as of: June 1, 2021.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Mastercard Platinum Preferred, Mastercard Platinum Rewards, Mastercard Platinum
Cash Back and Mastercard Platinum Secured are secured credit cards. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee: $20.00 or the amount of the required minimum payment, whichever is less, if your payment is not
received 5 days after your statement closing date.
Returned Payment Fee: $20.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee: $5.00.
Pay-by-Phone Fee: $10.00.
Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04501631-MXC10-C-2-060321 (MXC102-E)

